credit slip which will be posted to your account. If your credits and payments
exceed what you owe us, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be refunded upon your written or verbal request.

Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not responsible for goods or services that you purchase with the Card unless: (a)
your purchase was made in response to an advertisement we sent or participated in sending you; or (b) your purchase cost more than $50 and was
made from a plan merchant in your state or within 100 miles of your home;
and only if you have made a good faith attempt, but have been unable to obtain satisfaction from the plan merchant. You must resolve all other disputes
directly with the plan merchant. We do not warrant any merchandise or services purchased by you with the Card.

Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change
your address for any reason. In order to prevent identity theft, your identity
may need to be verified before we act upon the notification.

Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and
state law in the state in which we are primarily located, and the venue shall
be located in the county and state in which we are primarily located. Operating regulations of Visa may also apply. This Agreement is the contract that applies to all transactions even though the sales, cash advance, convenience
check, credit or other slips you sign or receive may contain different terms.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:

1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your credit
card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

M FI15303 Rev 1-2014

M-110895

©2005 Securian Financial Group, Inc. All rights reserved.

813•871•2690 or 1•888•871•2690
www.gtefinancial.org

VISA CREDIT CARD AGREEMENT

In this Agreement, “You” and “your” mean any person who accepts this Agreement or uses the Card. The “Card” means any credit card issued to you or
those designated by you under the terms of this Agreement. “We”, “us”, “our”
and the “Credit Union” means GTE Federal Credit Union or its successors.
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU
HAVE WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU
ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS
UNDER STATE AND/OR FEDERAL LAW. THE GRANTING OF THIS
SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF
CREDIT UNDER THIS AGREEMENT. IF YOU ARE IN DEFAULT, WE
CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE. Shares and
deposits in an Individual Retirement Account or any other account that
would lose special tax treatment under state or federal law if given are not
subject to this security interest.
If you have other loans with us, collateral securing such loans may also secure your obligations under this Agreement, unless that other collateral is
your principal residence or non-purchase money household goods.

Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from financial institutions and ATM machines that accept the Card, up to your maximum credit limit. You agree not to present your Card or obtain a cash
advance for any extension of credit in excess of your available credit limit ;
however, if you do exceed your credit limit, you agree to make immediate
payment sufficient to bring the balance below the credit limit. Certain purchases and cash advances require authorization prior to completion of the
transaction. In some cases, you may be asked to provide identification. If our
system is not working, we may not be able to authorize a transaction, even
though you have sufficient credit available. Also, for security reasons, we may
block the use of your Card in certain countries or geographic areas. We will
have no liability to you or others if any of these events occur.

Personal Identification Number (PIN). We may issue a Personal Identification Number (PIN) for use with your Card. This PIN is confidential and
should not be disclosed to anyone. You may use your PIN and your Card to
access your account, and all sums advanced will be added to your account
balance. In the event a use of your PIN constitutes an Electronic Funds
Transfer, the terms and conditions of your Electronic Funds Transfer Agreement may affect your rights.

Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or
fees; (c) collection costs and attorney’s fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess
of your credit limit that we may extend to you.

Illegal Transactions. You agree that your Card and account will not be used
to make or facilitate any illegal transactions as determined by applicable law;
and that any such use will constitute an event of default under this Agreement. We may decline any transaction that we believe to be illegal under applicable law, including but not limited to any transaction involving or relating
to any gambling activity. You agree that we will have no liability or responsibility for any such use by you or any authorized user(s); or for declining any
such transaction. You further agree to indemnify and hold us harmless from
any suits, liability, damages or adverse action of any kind that results directly
or indirectly from such illegal use. You promise to pay us any and all amounts
owing on your Card for any transactions made by you, even if the transaction
is determined to be illegal.

Joint Accounts. Each of you will be responsible, jointly and severally, for
the repayment of amounts owed, regardless of who initiated any transaction
under the account.

Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay
for all purchases and advances made by anyone you authorize to use your
account, whether or not you notify us that he or she will be using it. If someone else is authorized to use your account and you want to end that person’s
privilege, you must notify us in writing, and if he or she has a Card, you must
return that Card with your written notice for it to be effective.

Ownership of Card. Your Card remains our property and may be cancelled
by us at any time without notice. You agree to surrender your Card and to discontinue use of the account immediately upon our request.

Variable Rate Information. Your standard variable Annual Percentage Rate
(APR) for purchases, balance transfers and cash advances may increase or
decrease monthly. We determine the APR by adding a margin, as determined
by your creditworthiness, to the Prime Rate published in The Wall Street Journal. For each month, we add your margin to the Prime Rate as published on the
first business day of the previous calendar month and adjusted on the first day
of your billing cycle of the following month. When a change in the Prime Rate
occurs, the resulting new APRs will apply to all balances on your account starting with your next monthly billing cycle. If we determine that a change in your
credit standing requires an increase in your margin, you will receive 45 days
advance written notice, and the new rate will apply to new transactions only.

Interest Charges. Average Daily Balance including new transactions: Interest Charges will accrue on your average daily balance outstanding during
the month. To get the average daily balance, we take the beginning balance
each day, add any new purchases, cash advances, balance transfers or other
advances, and subtract any payments, unpaid interest charges, and unpaid
late charges. This gives us the daily balance. Then, we add up all the daily
balances for the billing cycle and divide that by the number of days in the
billing cycle. We then multiply that by the periodic rate corresponding to the
Annual Percentage Rate on your account. If you have different rates for purchases, cash advances or balance transfers, separate average daily balances for each will be calculated and the appropriate periodic rate is then
applied to each.

Grace Period on Purchases Only: You can avoid Interest Charges on purchases by paying the full amount of the new balance for purchases each
month by the date on which the payment is due. Otherwise, the new balance
of your account, and subsequent advances from the date they are posted to
the account, will be subject to an Interest Charge. You cannot avoid Interest
Charges on cash advances and balance transfers; even if you pay the entire
cash advance balance or balance transfer balance by the payment due date,
you will incur the Interest Charges accrued from the date the cash advance
or balance transfer is posted to your account.

Fees. In addition to the Interest Charges set forth above, you agree to also
pay any and all fees that you incur as disclosed to you on your Truth-in-Lending Statement or similar disclosures (as may be amended from time to time),
or as disclosed to you during the term of your Card.

If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree
to notify us immediately if your Card is ever lost or stolen or if an unauthorized
use may have occurred. “Unauthorized use” means the use of the Card by
someone other than you who does not have actual, implied or apparent authority for such use, and from which you receive no benefit. The telephone
number to call is 813.871.2690 or toll-free 1.888.871.2690. You agree to follow
up your call with notice in writing to us at: P.O. Box 172599, Tampa, FL 336720599. You also agree to assist us in determining the facts, circumstances and
other pertinent information relating to any loss, theft or possible unauthorized
use of your Card and comply with such procedures as we may require in connection with our investigation. You will be liable for any unauthorized use only
if we can prove that you were grossly negligent in your use or handling of your
Card, or if we can prove that you used your Card fraudulently.

Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. If your payment
is received by us on a business day at the address and by the time designated on the billing statement, it will be credited to your account on the date
of receipt. If payment is made at any location other than the address designated on the periodic statement, credit for such payment may be delayed up
to five (5) days. The minimum periodic payment required is 2% of the balance, plus any amount in excess of your credit limit, plus any amount past
due, or $25.00, whichever is greater.

Default; Acceleration; Credit Suspension; Collection Costs. You will be
in default if: (1) you fail to make any payment on time; (2) if you fail to keep
any promises you have made under this Agreement or under other Agreements you have with us; (3) if you die; (4) if you file a petition in bankruptcy
or have a bankruptcy petition filed against you, or if you become involved in
any insolvency, receivership or custodial proceeding; (5) if anyone attempts
to take any of your funds held by us via legal process or if you have a judgment or tax lien filed against you; (6) if you make any false, inaccurate, or misleading statements in any credit application or credit update; or (7) if we, in
good faith, believe that your ability to repay what you owe is or soon will be
impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your
full account balance without giving you notice. If immediate payment is demanded, you agree to continue paying interest charges and fees until what
you owe has been paid, and any shares that were given as security for your
account may be applied towards what you owe. You agree to pay all reasonable costs of collection, including court costs and attorney’s fees, and any
costs incurred in the recovery of the Card, subject to applicable law. Even if
your unpaid balance is less than your credit limit, you will have no credit available during any time that any aspect of your account is in default.

Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You understand that we are not obligated to offer such services and may withdraw or
change them at any time.

Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for the
amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance
in your account to exceed your credit limit.

Credit Information. We may from time to time request personal information
from you or obtain credit reports from the credit reporting agencies for the purpose of updating your credit status. Your failure to provide such information
when requested by us may result in suspension of credit privileges under this
Agreement, including your ability to obtain any future advances by any means.
You authorize us to investigate your credit standing when opening or reviewing your account. You authorize us to disclose information regarding your account to credit bureau and creditors who inquire about your credit standing.

Foreign Transactions; Currency Conversion. Purchases and cash advances made in foreign currencies will be billed to you in U.S. dollars. The
conversion rate in dollars will be a rate selected by the card company from a
range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary from the rate the card company itself receives, or the government-mandated rate in effect for the applicable
central processing date in each instance. All transactions processed outside
of the United States (which may include internet transactions) will be charged
foreign transaction fees in the amount disclosed on your Truth-in-Lending
Statement (as amended from time to time).

Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the
terms of this Agreement, including the method of calculating the periodic rate,
at any time, by written notice, subject to applicable law. Use of the Card constitutes agreement and acceptance of any change in terms, unless applicable law requires otherwise. Our failure to exercise any of our rights or to take
any action shall not constitute a waiver of those rights, or an amendment or
change in any of the terms of this Agreement.

Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or prepayments will not delay your next scheduled payment – you will still need to make
the minimum scheduled payment by the next scheduled due date to keep
your account current. We may accept late payments, partial payments,
checks or money orders marked “payment in full” and such action shall not
constitute final settlement of your account or a waiver or forgiveness of any
amounts owing under this Agreement.

Enforcement. We do not lose our rights under this or any related agreement
if we delay enforcing them. If any provision of this or any related agreement
is determined to be unenforceable or invalid, all other provisions remain in full
force and effect.

Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a

